«

(
¥

i

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
a

Date:

^ 3- ^ \

A

ORIGINAL

*1048391 578 *

IN THE COURT OF CRIMINAL APPEALS OF
THE STATE OF OKLAHOMA
PRENTISS MORRIS,
Appellant,

NOT FOR PUBLICATION
r

v.

Case No. F-2019-464

THE STATE OF OKLAHOMA,
Appellee.

FEB 1 1 2021
SUMMARY OPINION

JOHN D. HADDEN
CLERK

LUMPKIN, JUDGE:
Appellant, Prentiss Morris, was tried by jury in the District
Court of Creek County, Case No. BCF-2j5l8jl52, and convicted of
Count 1, First Degree Rape, in violation of 21 O.S. Supp. 2017, §
1114, after Former Conviction of a Felony. The jury recommended
punishment of twenty years imprisonment and the trial court
sentenced him accordingly.1 From this judgment and sentence,
Appellant appeals.
Appellant raises the following propositions of error in this appeal:
I.

The trial judge erred by denying the motion to quash the
former felony.

appellant will be required to serve 85% of his sentence before becoming
eligible for parole. 21 O.S.Supp.2015, § 13.1. The jury acquitted Appellant
of Count 2, First Degree Burglary.

II.

The trial judge abused his discretion by improperly
removing a juror for cause.

III.

Prosecutorial misconduct denied Appellant a fair trial.

IV.

The Trial Court [sic] erred by permitting the testimony of
the mother of the alleged victim regarding the alleged
victim’s mental problems.

V.

Appellant was denied his right to present a defense.

VI.

The testimony of [A.W.] was not credible enough to meet
the standard of beyond reasonable doubt; thus the
conviction must be reversed.

VII.

An evidentiary harpoon by a witness deprived Appellant of
a fair trial and due process of law.

VIII.

The trial court erred by failing to instruct the jury that
Appellant would be required to register as a sex offender.

IX.

Evidence of other crimes deprived Appellant of a fair trial.

X.

The admission of other crime evidence with no notice of
intent to offer such evidence by the Prosecutor was a
violation of Appellant’s right to a fair trial and Due Process
of Law.

XI.

Cumulative error deprived Appellant of a fair trial.
After thorough consideration of these propositions and the entire

record before us on appeal including the original record, transcripts,

2

and briefs of the parties, we have determined that under the law and
the evidence, Appellant is not entitled to relief.
I.
Appellant argues in his first proposition that the trial court
i

erred by denying his motion to quash. Specifically, he contends he
should have received the benefit of a change in the law regarding use
of a prior drug possession conviction to enhance punishment in a
subsequent case. Appellant’s argument is patently meritless.
Review of the trial court’s ruling on a motion to quash is for an
abuse of discretion. State v. Farthing, 2014 OK CR 4, ^ 4, 328 P.3d
1208, 1209. An abuse of discretion is a clearly erroneous conclusion
and judgment, one that is clearly against the logic and effect of the
facts presented or, stated otherwise, any unreasonable or arbitraiy
action taken without proper consideration of the facts and law
. pertaining to the matter at issue. Neloms v. State, 2012 OK CR 7, ^
35, 274 P.3d 161, 170 (internal citation and quotation marks
omitted).
“[T]he

presumption

against retroactive legislation is

deeply

rooted in our jurisprudence, and embodies a legal doctrine centuries
older than our Republic.” Landgraf v. USI Film Products, 511 U.S.
3

244, 265 (1994). “Thus, the general common law rule of statutory
construction is that statutes and amendments are to be construed to
operate only prospectively unless the legislature clearly expresses an
intent to the contrary.” State v. Hurt, 2014 OK CR 17, % 8, 340 P.3d
7, 9. The record reveals that Appellant’s crime occurred on June 14,
2018, long before the change in ffl

•^•'Supb■ 2PITT.

oTT? took

effect. As shown in^ggfigrrS^Tl, the statute expresses no legislative
intent that its provisions operate retroactively. Accordingly, there was
no abuse of discretion in the trial court’s denial of the motion to
quash. Proposition is denied.
II.
In his second proposition, Appellant claims the trial court
improperly excused juror L.S. for cause. The record reflects that the
prosecutor exercised a peremptory challenge to juror L.S. and the
trial court did not remove the juror for cause. Appellant does not
challenge the prosecutor’s removal of L.S. by peremptory challenge.
Thus.tie fails, to show any errorfjProposition II is denied.
III.

4

In Proposition III, Appellant alleges numerous instances of
prosecutorial misconduct deprived him of a fair trial. Specifically, he
argues the prosecutor made prejudicial statements during voir dire,
improperly invoked sympathy for A.W., engaged in improper
questioning, gave her personal opinion of Appellant’s guilt, made an
improper societal alarm argument and improperly vouched for A.W.
Where the defense objected to these statements, review is for an
abuse of discretion. Washington v. State, 1999 OK CR 22, If 21, 989
P.2d

960,

970.

An abuse of discretion is

a clearly erroneous

conclusion and judgment, one that is clearly against the logic and
effect of the facts presented or, stated otherwise, any unreasonable
or arbitrary action taken without proper consideration of the facts
and law pertaining to the matter at issue. Neloms, 2012 OK CR 7, If
35, 274 P.3d at 170 (internal citation and quotation marks omitted).
review is for plain error. Wall
v. State, 2020 OK CR 9, If 31, 465 P.3d 227, 235. As set forth in
Simpson v. State, 1994 OK CR 40, IHf 2, 11, 23, 30, 876 P.2d 690,
694-95, 698-701, we determine whether Appellant has shown an
actual error, which is plain or obvious, and which affects his or her
5

substantial rights. This Court will only correct plain error if the error
seriously affects the fairness, integrity or public reputation of the
judicial proceedings or otherwise represents

■ ■ A~- ••

Id., 1994 OK CR 40, If 30, 876 P.2d at 701.
This Court reviews claims of prosecutorial misconduct “within
the context of the entire trial, considering not only the propriety of
the prosecutor’s actions, but also the strength of the evidence against
the defendant and the corresponding arguments of defense counsel.”
Mitchell v. State, 2010 OK CR 14, ^f 97, 235 P.3d 640, 661. “Relief will
be granted on claims of prosecutorial misconduct only where the
prosecutor committed misconduct that so infected the defendant's
trial that it was rendered fundamentally unfair, such that the jury's
” Sanders v. State, 2015 OK CR

verdicts

11, f 21, 358 P.3d 280, 286. Moreover, prosecutors have wide
latitude in closing argument to discuss the evidence and reasonable
inferences therefrom. Hanson v. State, 2003 OK CR 12, f 13, 72 P.3d
40, 49.
Allegation regarding voir dire. The record reflects that the trial
court sustained defense counsel’s objections to two comments made
6

!

by the prosecutor and admonished the jury after one of them.
“[W]here the objections were sustained, any error was cured.” Bever
v. State, 2020 OK CR 13, If 61, 467 P.3d 693, 705. We find any error
was cured by the trial court’s action in sustaining the defense
objections.
Allegations regarding sympathy. In three of the complained of
instances, defense counsel objected, the trial court sustained the
objection and admonished the jury to disregard the instances. Any
error occurring due to these occurrences was cured. Bever, 2020 OK
CR 13, | 61, 467 P.3d at 705. “We find that the admonishment to the
jury was sufficient to cure any error and no plain error occurred.”
Jones v. State, 2006 OK CR 5, f 46, 128 P.3d 521, 540.
Appellant complains that the prosecutor’s use of the word
“rapist” during opening statement invoked sympathy for A.W.
Defense counsel objected that the term was argumentative and
inflammatory. There was nothing objectionable about use of the word
rapist. The prosecutor used it at the conclusion of her opening
statement, having summarized the evidence the State would present
to prove Appellant committed the charged crimes. See Hammon v.
7

State, 1995 OK CR 33,

87, 898 P.2d 1287, 1306 (“purpose of

opening statement is to apprise the jury of the evidence the attorneys
expect to present during trial.”). There was no error and no abuse of
the trial court’s discretion in overruling the defense objection.

!

Appellant also contends error occurred from the prosecutor’s
question to Officer Jamill Wenzel if, in her training and experience,
A.W.’s

interview was

“consistent with

someone who’d

been

traumatized and was retelling their story?” The officer answered
affirmatively. Appellant’s defense was that he and A.W. had
consensual sex and she was making up her allegations because
Appellant was seeing other women. It is not improper for the State to
rebut a claim of the defense. See Bosse v. State, 2015 OK CR 14, Tf
78, 360 P.3d 1203, 1233-34 (the prosecutor properly argued to the
jury that th

by the evidence and

no burden shifting occurred). The prosecution may also properly
respond to the defense theory or to the defense characterization of
the State’s case. Taylor v. State, 2011 OK CR 8,

56, 248 P.3d 362,

379; Browning v. State, 2006 OK CR 8, If 43, 134 P.3d 816, 841. No
error resulted from this question and answer.
8

Appellant argues certain statements of the State during closing
argument about A.W.’s physical and mental condition evoked
sympathy for A.W. That A.W. was
was an inescapable fact. The evidence showed Appellant took
advantage A.W.’s disabilities. It certainly was not error for the State
to remind the jury of A.W.’s limitations. “Certain facts simply cannot
lon the basis that they also evoke
sympathy.” Cole v. State, 2007 OK CR 27, t 54, 164 P.3d 1089, 1101.
No error occurred from these statements.
Allegations regarding societal alarm. In one instance, defense
counsel objected and the trial court sustained the objection and
admonished the jury. As set forth above, where an objection is
sustained, any error is cured. Bever, 2020 OK CR 13, Tf 61, 467 P.3d
at 705; Jones, 2006 OK CR 5, If 46, 128 P.3d at 540.
Next, Appellant complains of the prosecutor’s description of his
consent defense contained in a hypothetical scenario where a woman
is raped and identifies the man who raped her. The prosecutor asked
the jury what defense the man would put forth. Defense counsel
9

objected and the trial court overruled the objection. The prosecutor
continued, telling the jury that the consent defense explains the
physical evidence. “The prohibited ‘societal alarm’ argument is one,
that mentions crimes committed by other persons and not
attributable to the defendant on trial such as arguments that the
crime rate is increasing.*

2002 OK CR 40, t 151,

60 P.3d 4, 33. This was not a societal alarm argument as the
prosecutor was not speaking of actual crimes committed by other
persons but was offering a similar scenario to that of the instant case
in order to explain the logic of the consent defense. There was no
error in this argument and no abuse of the trial court’s discretion in
overruling the defense objection.
Allegations that the prosecutor gave her personal opinions
of appellant’s guilt during closing argument. The prosecutor
recounted Appellant’s testimony about his long criminal history. She
then told the jury “it seemed to me that [the defendant] was proud of
that lifestyle that he’s chosen for himself’ and that he had chosen to
disregard law. Given his detailed testimony about his history and
drug use, as well as hi;

, this was a reasonable
10

i

inference for the prosecutor to make. Cf*

K CR

15, U 30, 446 P.3d 1248, 1260 (“Here, taken in context, the
prosecutors did not improperly state their personal opinion of guilt,
but permissibly argued that the evidence supported a finding of
guilt.”).
Appellant next argues the prosecutor mocked the defense when
she stated to the jury, after reminding the jury of his changed
testimony about how long he had been in a relationship with A.W.,
that Appellant was just “making stuff up.” Given Appellant’s differing
statements about the duration of his relationship with A.W., this was
certainly a reasonable inference. See

017 OK CR 10,

1f 82, 400 P.3d 834, 863 (“Both parties have wide latitude in closing
argument to argue the evidence and reasonable inferences from it.”).
Appellant maintains the prosecutor erred in arguing to the juiy that
he gets violent when he needs money “I guess” for drugs. Again, this
was a reasonable inference based upon
witnesses’ testimony about Appellant’s drug use and his behaviors in
seeking money. Bosse,1 WOT OK CR 10, If 82, 400 P.3d at 863. No
error resulted from these comments.
11

Allegations of vouching. Appellant lastly maintains the
prosecutor vouched for A.W. Appellant complains of the prosecutor’s
statements to the jury that she “believe[s] that the evidence indicates”
A.W. testified consistently with her recorded interview. This
statement came during the prosecutor’s discussion of the element of
force or violence and how the evidence presented supported proof of
the element. ‘"Vouching” occurs when an attorney or witness
indicates a personal belief in a witness's
explicit personal assurances of the witness's veracity or by implicitly
indicating that information not presented to the jury supports the
witness's testimony.” Bench v. State, 2018 OK CR 31,

90, 431 P.3d

929, 957, cert, denied, 140 S. Ct. 56 (2019). Clearly the prosecutor
was not telling the jury her personal opinion of A.W.’s veracity, but
was directing thi

at the recorded statements and

compare them to A.W.’s testimony in order to reach its own decision.
There was no error in this statement. Cf. Howell u. State, 2006 OK
CR 28, Tf 16, 138 P.3d 549, 557 (it is appropriate for the State to refer
to evidence admitted at trial during closing argument and to argue to

12

the jury how the evidence supports the State’s burden of proof).
Proposition III is denied.
IV.
In Proposition IV, Appellant alleges A.W.’s mother, Eva Frazier,
gave improper testimony regarding A.W.’s disabilities. He argues this
evidence was not relevant to any issue in the case. We review this
properly preserved claim for an abuse of discretion as set forth in
Proposition I.

2013 OK CR 19, f 15, 315 P.3d 392,

397.
“Relevant evidence is evidence having any tendency to make the
existence of a fact that is of consequence to the determination of the
action more probable or less probable than it would be without the
evidence.” Postelle v. State, 2011 OK CR 30 % 31, 267 P.3d 114,
131; 12 O.S.2001, § 2401. "Relevant evidence need not conclusively,
or even directly, establish the defendant’s guilt; it is admissible if,
when taken with other evidence in the case, it tends to establish a
material fact in issue.”4

If 40, 248 P.3d at 375-

76. "Relevant evidence may be excluded if its probative value is
substantially outweighed by the danger of unfair prejudice, confusion
13

an easy target for Appellant and its probative value is not
substantially outweighed by its prejudicial effect. The trial court
properly

A.W.’s mental and

physical state. Accordingly, there was no abuse of discretion in the
admission of this evidence. Proposition IV is denied.
V.
Appellant contends in his fifth proposition that he was denied
his right to present a defense. He specifically argues the trial court
erroneously excluded evidence that A.W. told someone she previously
engaged in sexual intercourse with Appellant. Review of this properly
preserved claim is for an abuse of discretion as set forth in
Proposition I. Dill v. State, 2005 OK CR 20, ^ 5, 122 P.3d 866, 868.
Appellant sought to put on testimony of Alicia Periy that A.W.
told her A.W. had slept with Appellant previously. He characterizes
this testimony as impeachment evidence not offered to prove its
truth, but to show A.W.’s rape allegation was false. The State objected
that any such testimony was

*the evidentiary

requirements of the Rape Shield Statute. The
the evidence.
15

Pursuant to Oklahoma’s “Rape Shield” statute, 12 O.S.2011, §
2412, inquiry at trial into certain aspects of a victim’s sexual conduct
is prohibited. That statute provides pertinently as follows:
A. In a criminal case in which a person is
accused of a sexual offense against another
person, the following is not admissible:
1. Evidence of reputation or opinion regarding
other sexual behavior of a victim or the sexual
offense alleged.
2. Evidence of specific instances of sexual
behavior of an alleged victim with persons other
than the accused offered on the issue of
whether the alleged victim consented to the
sexual behavior with respect to the sexual
offense alleged.
B. The provisions of subsection A of this section
do not require the exclusion of evidence of:
1. Specific instances of sexual behavior if
offered for a purpose other than the issue of
consent, including proof of the source of semen,
pregnancy, disease or injury;
2. False allegations of sexual offenses;
As shown above, the statute allows evidence of specific instances of
sexual behavior if offered for a purpose other than the issue of
consent and evidence of false allegations of sexual offenses. Appellant
argues Perry’s testimony was offered to show A.W.’s rape allegation
was false. Perry’s testimony was not evidence of specific instances of
sexual behavior, nor was it evidence of
16

offenses. Perry never saw Appellant and A.W. having sex, her
proposed testimony was simply that A.W. told her they did. Such
testimony had nothing to do with false allegations of a sexual offense.
The testimony is nothing but hearsay, ie., an out of court statement
offered for the truth of the matter asserted,
Finally, Appellant testified fully and completely that his sexual
encounter with A.W. was consensual. He presented his consent
defense to the jury. The trial court did not abuse its discretion in
excluding Perry’s testimony. Proposition V is denied.
VI.
In Proposition VI, Appellant alleges his conviction is not
supported by sufficient evidence. Specifically, he argues A.W.’s
testimony was so inconsistent as to be incredible. This Court follows
the standard for the determination of the sufficiency of the evidence
which the United States Supreme Court set forth i:

1

- - ■-

443 U.S. 307, 319 (1979); Easlick v. State, 2004 OK CR 21, 1 15, 90
P.3d 556, 559; Spuehlerv. State, 1985 OK CR 132, 1 7, 709 P.2d 202
203-04. Under this test, “the relevant question is whether, after
viewing the evidence in the light most favorable to the prosecution, any
17

rational trier of fact could have found the essential elements of the
crime beyond a reasonable doubt.” Jackson, 443 U.S. at 319; Easlick,
2004 OK CR 21, If 5, 90 P.3d at 558-59; Spuehler, 1985 OK CR 132, 1f
7, 709 P.2d at 203-04. A reviewing court must accept all reasons,
inferences, and credibility choices that tend to support the verdict.
Taylor, 2011 OK CR 8, f 13, 248 P.3d at 368. “The credibility of
witnesses and the weight and consideration to be given to their
testimony are within the exclusive province of the trier of facts and
the trier of facts may believe the evidence of a single witness on a
question and disbelieve several others testifying to the contrary.”
Davis v. State, 2011 OK CR 29, 1f 83, 268 P.3d 86, 112-13.
The State had to prove the following elements of first degree rape
beyond a reasonable doubt:
First, sexual intercourse;
Second, with a person who was not the spouse of the
defendant;
here force/violence was used against the victim
or where force/violence was threatened against the
victim and the defendant had the apparent power to
carry out the threat of force/violence.

18

j

Instruction No. 4-120, OUJI-CR (2d). Although Appellant points to
portions of A.W.’s testimony that he maintains are inconsistent and
argues the State failed to prove each element of first degree rape
beyond a reasonable doubt, he fails to identify
elements of the crime were not proven sufficiently.
Appellant’s DNA was found on a swab from inside A.W.’s vagina.
A. W. testified Appellant forced his way into her apartment, demanded
money and when she did not give him money, grabbed her by the
hair and forced her into the bedroom. Thereafter, he made her
disrobe, stuffed something in her mouth, put her face in a pillow,
threatened her with harm and raped her. Any inconsistencies in
A.W.’s testimony, such as did she remove her bra, were insignificant
with regard to proof of the elements of rape. Appellant testified and
the jury saw him and heard his testimony. That the jury disbelieved
Appellant and believed A.W. regarding the rape is completely
appropriate. Davis, 2011 OK CR 29, If 83, 268 P.3d at 112-13.
Appellant’s

conviction

is

supported

Proposition VI is denied.
VII.
19

by

Appellant complains in this proposition that A.W. launched
what he terms an evidentiary harpoon when she testified he was a
drug user. Review of this claim is for plain error as set forth in
Proposition III since Appellant objected to the testimony at trial on a
different basis than that of evidentiary harpoon which he now
asserts. Soriano v. State, 2011 OK CR 9,

41, 248 P.3d 381, 398.

During cross-examination of A.W., defense counsel asked her
about her relationship with Appellant. A.W. responded that she first
discovered Appellant was married, and then she found out “that he’s
into drugs, hard core drugs.” Defense counsel objected to A.W.’s
statement as being “nonresponsive and inflammatoiy” and stated he
thought to preserve the record he had to move for a mistrial. It does
not appear that he in fact moved for a mistrial. The trial court
admonished the juiy to disregard A.W.’s statement and instructed
A.W. to listen carefully to the questions.
The complained of testimony was not an evidentiaiy harpoon as
it was spontaneously given by a lay witness and did not prejudice
e. Furthermore, the
trial court’s prompt action in admonishing the jury cured any
20

registration. Appellant offers nothing which persuades
decision in Reed. Proposition VIII should be denied.
IX.
In this proposition, Appellant argues the admission of so-called
other crimes evidence deprived him of a fair trial. His argument centers
on three instances. We review this claim for plain error as set forth in
Proposition III since there was no objection at trial to the admission of
the complained of evidence. White v. State, 2019 OK CR 2, f 15, 437
P.3d 1061, 1067-68.
Generally, evidence of a defendant's prior bad acts or other
crimes is inadmissible to show that he or she acted in conformity
therewith on a particular occasion. 12 O.S.2011, § 2404(A). In
Kirkwood v. State, 2018 OK CR 9, If 5, 421 P.3d 314, 316, this Court
held as follows regarding admission of evidence pursuant to the
exceptions found in Section 2404(B):
Evidence of other crimes must be (a) probative of a
disputed issue of the charged crime; (b) there must be a
visible connection between the crimes; (c) the evidence
must be necessary to support the State's burden of proof;
(d) proof of the evidence must be clear and convincing; (e)
the probative value of the evidence must outweigh its
prejudicial effect; and (f) the trial court must instruct
22

jurors on the limited use of the testimony at the time it is
given and during final instructions.
When weighing the probative value of this evidence against its
prejudicial effect, the evidence is given "its maximum probative force
and minimum reasonable prejudicial value
OK CR 23, f 9, 450 P.3d 969, 972.
Appellant

first

complains

that

Officer

Michael

Randall

referenced a prior crime when he testified he spoke with Appellant at
the police station “in reference to an unrelated investigation we had
going on.” Randall also indicated he had prior history with Appellant.
Appellant contends this testimony was other crimes evidence
because it implied that he was under suspicion in the unrelated
investigation. Contrary to Appellant’s contention, this evidence
served to explain how Randall came to obtain Appellant’s statement.
Cf. Sanders, 2015 OK CR 11, f 28, 358 P.3d at 287(officer’s testimony
about the appellant’s contacts with the victim’s house was not other
crimes evidence but evidence of why police served the appellant’s
arrest warrant at that location). The evidence implied only that
Appellant had prior encounters with the police, not that he
committed prior crimes. There is nothing criminal about speaking
23

with police or assisting them with their investigations. Appellant’s

i

argument to the contrary is nothing more than speculation. This
testimony was properly admitted.
Appellant

next

considers

other

crimes

evidence

A.W.’s

i

testimony that Appellant threatened to kill her if she told anyone that
he raped her, that Appellant sometimes would take her money to get
beer but would not return to her apartment and that on the night of
the rape, Appellant demanded money from her. This testimony is part
of the res gestae of the crime charged. “Evidence is considered part of
the res gestae when (1) it is so closely connected to the charged offense
as to form part of the entire transaction; (2) it is necessaiy to give the
jury a complete understanding of the crime; or (3) it is central to the
chain of events.” Tafolla, 2019 OK CR 15, % 16, 446 P.3d at 1257, citing
Jackson v. State, 2006 OK CR 45, f 28, 146 P.3d 1149, 1160. “Res
gestae are those things, events, and circumstances incidental to and
surrounding a larger event that help explain it.”"
2002 OK CR 40,

r-

63, 60 P.3d 4, 22. Clearly, A.W.’s relationship with

Appellant was closely connected to his rape of her and showed how he
came to know her and to have access to her. In this regard, A.W.’s
24

11

crimes evidence. Therefore, no notice was required. Proposition X is
denied.
XI.
Appellant lastly argues the accumulation of error deprived him
of a fair trial. “A cumulative error argument has no merit when this
Court fails to sustain any of the other errors raised by Appellant.”
Fuston v. State, 2020 OK CR 4, f 126, 470 P.3d 306, 333. As we have
found no error in the preceding propositions, Appellant is not entitled
to relief on a cumulative error basis. Proposition XI is denied.
DECISION
The Judgment and Sentence of the district court is AFFIRMED.
Pursuant to Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2020), the MANDATE is ORDERED
issued upon delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF CREEK COUNTY
THE HONORABLE KELLY HAKE, DISTRICT JUDGE
APPEARANCES AT TRIAL

APPEARANCES ON APPEAL

JASON SERNER
614 S. HIAWATHA
SAPULPA, OK 74066
COUNSEL FOR DEFENDANT

LISBETH L. McCARTY
P.O. BOX 926
NORMAN, OK 73070
COUNSEL FOR APPELLANT
27

